No. 20-1169
IN THE

Supreme Court of the United States
___________________

WILLIAM ALBERT HAYNES III, ET AL.,
vs.

Petitioners,

WORLD WRESTLING
ENTERTAINMENT, INC.,
___________________

Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Second Circuit
___________________
BRIEF IN OPPOSITION TO PETITION FOR A
WRIT OF CERTIORARI
___________________

David R. Fine
K&L GATES LLP
17 North Second St.,
18th Fl.
Harrisburg, PA 17101
(717) 231-4500

Jerry S. McDevitt
(counsel of record)
Curtis B. Krasik
K&L GATES LLP
K&L Gates Center
210 Sixth Avenue
Pittsburgh, PA 15222
(412) 355-6500

jerry.mcdevitt@klgates.com

i
TABLE OF CONTENTS
INTRODUCTION..................................................... 1
STATEMENT OF THE CASE ................................. 3
REASONS FOR DENYING THE WRIT ............... 11
I.

There is no split of authority, and the issue
presented is not of sufficient importance to
warrant this Court’s review. ....................... 11

II.

The Second Circuit did not err. ................... 12

III.

Petitioners had means to pursue their
appeals. ........................................................ 14

IV.

This case would in any event be a poor vehicle
for the Court’s consideration because
Petitioners did not raise the issue below. ... 15

CONCLUSION ....................................................... 16

ii

TABLE OF AUTHORITIES
Page(s)

Cases
Bowles v. Russell, 551 U.S. 205 (2007) .................2,10
Firestone Tire & Rubber Co. v. Risjord, 449
U.S. 368 (1981) ..................................................... 2
Hageman v. City Investing Co.,
851 F.2d 69 (CA2 1988) .....................................1,4
Hall v. Hall, 138 S.Ct. 1118 (2018) ................. passim
Harris Truck Lines, Inc. v. Cherry Meat
Packers, Inc.,
371 U.S. 215 (1962) (per curiam) .......................13
McCullough v. World Wrestling
Entertainment, Inc.,
838 F.3d 210 (CA2 2016) ............................ passim
Sargent v. Columbia Forest Prods., Inc.,
75 F.3d 86 (CA2 1996) ........................................14
Stevens v. Miller, 676 F.3d 62 (CA2 2012) ..............14
United States v. Tapia,
816 Fed.Appx. 619 (CA2 2020) ...........................15
United States v. United Foods, Inc.,
533 U.S. 405 (2001) .............................................15

iii

Other Authorities
U.S. Supreme Court Rule 10 ...................................11
Federal Rule of Civil Procedure 42 ........................... 3
Federal Rule of Civil Procedure 54(b) ..................4,14

1
Respondent World Wrestling Entertainment,
Inc. (“WWE”), asks the Court to deny the petition
for a writ of certiorari.
INTRODUCTION
There is no reason for the Court to accept review
in this case. Petitioners make no suggestion that
their case creates or perpetuates a split of authority,
and they make only a half-hearted and incorrect assertion that there is an issue of widespread public
importance. The petition meets none of the Court’s
usual criteria for granting review. It is, instead, an
unadorned request that the Court correct an error—
even though none was made—or create a sui generis
equitable exception to a jurisdictional deadline despite clear authority precluding such a remedy and
facts that underscore that Petitioners’ dilemma is of
their own creation.
The Second Circuit correctly resolved this one-off
case. When it originally decided McCullough v.
World Wrestling Entertainment, Inc., 838 F.3d 210
(CA2 2016), the Court of Appeals followed thencontrolling circuit authority, Hageman v. City Investing Co., 851 F.2d 69 (CA2 1988), to conclude
that an appeal from the dismissal of just two of a
group of consolidated cases was premature. 1 When
it reached the later decision for which Petitioners
now seek review, the Court of Appeals followed Hall
v. Hall, 138 S.Ct. 1118 (2018), which had in the interim overruled Hageman. That is precisely what
the Court of Appeals was required to do.

1

App. 102.

2
Moreover, even if the Second Circuit had erred,
there is no indication that the error has or will affect other cases. The Court decided Hall three years
ago, and Petitioners have identified no other cases
like theirs, and there will not likely be more cases
like theirs.
Petitioners’ real complaint is that the Second
Circuit did not create some sort of equitable exception to Hall just for their case. But they never asked
the Court of Appeals for that sort of relief, and the
court would have had no authority to grant it since
the timely filing of a notice of appeal is mandatory
and jurisdictional. See Bowles v. Russell, 551 U.S.
205, 209, 214 (2007) (timely filing of notice of appeal
is mandatory and jurisdictional and courts cannot
create equitable exceptions); Firestone Tire & Rubber Co. v. Risjord, 449 U.S. 368, 379 (1981) (“A court
lacks discretion to consider the merits of a case over
which it is without jurisdiction, and thus, by definition, a jurisdictional ruling may never be made prospective only.”) (quotation omitted).
Bowles precludes any equitable exception but,
even if it did not, this case would not be a good candidate for equitable relief from the deadline. Both
before and after the Court announced its decision in
Hall, there were plainly steps Petitioners could have
taken to preserve their appellate rights and to address that new authority, but they did nothing, and
their current situation is of their own making.
There is no reason for the Court to step into a
one-off case to assist counseled parties who made no
effort to protect their appellate rights. The WWE
asks the Court to deny the petition.

3
STATEMENT OF THE CASE
There are three cases at issue in the petition: (1)
Haynes v. World Wrestling Entertainment, Inc.; (2)
McCullough v. World Wrestling Entertainment, Inc.;
and (3) Frazier v. World Wrestling Entertainment,
Inc. The District Court in Connecticut consolidated
those cases with four others raising similar claims
regarding former professional wrestlers’ claims that
they suffered from chronic traumatic encephalopathy (“CTE”) arising from their performances as
wrestlers. See Fed. R. Civ. P. 42. 2 Konstantine W.
Kyros, Esq., was lead counsel for the plaintiffs in
those suits. 3
Because the petition focuses solely on the application of Hall to the appeals from the dismissals of
these three cases, the Court need not delve into the
underlying merits. It is sufficient to note that, when
it adjudicated each of the claims, the District Court
correctly held that the three complaints failed to
2

App. 9.

Before the cases were consolidated in the District of Connecticut, Mr. Kyros engaged in significant forum shopping. Mr.
Kyros first filed the Haynes action in Oregon in October 2014
as a putative class action. Three months later, he filed a second, repetitive putative CTE class action in Pennsylvania. A
month later, he filed the Frazier action in Tennessee. Two
months later, he filed the McCullough action in California,
again as a putative class action. In June 2015, the federal
court in Oregon determined that Mr. Kyros had engaged in
forum shopping and transferred the Haynes case to the District of Connecticut. The next day, undeterred, Mr. Kyros filed
another CTE case in Texas. All of the cases filed after Haynes
were ultimately transferred to the District of Connecticut by
courts that enforced the forum-selection clauses in the contracts between the WWE and the performers.
3

4

state a plausible claim. 4 Additionally, the Second
Circuit’s 2020 opinion reached the merits of the only
case for which the appeal was timely—Laurinaitis v.
World Wrestling Entertainment, Inc.—and affirmed
the District Court’s determination that all of the
claims in that lawsuit, styled as a mass action, were
time-barred. 5 The Second Circuit’s merits holding
regarding limitations in Laurinaitis would apply
equally to Haynes, McCullough and Frazier had the
appeals in those three cases been timely.
On March 21, 2016, the District Court dismissed
all claims in the Haynes and McCullough cases. 6
The plaintiffs in those cases took immediate appeals
to the Second Circuit. The WWE responded with
motions to dismiss the appeals as premature pursuant to the circuit’s then-controlling precedent,
Hageman v. City Investing Co., 851 F.2d 69 (2d Cir.
1988), which held that appeals in consolidated cases
had to wait until all of the cases were concluded.
The Court of Appeals agreed and dismissed both
Haynes and McCullough on September 27, 2016. See
McCullough v. World Wrestling Entertainment, Inc.,
838 F.3d 210 (CA2 2016). 7 The plaintiffs in those
cases sought neither rehearing nor certiorari. Neither did they ask the District Court to certify their
claims for immediate appeal under Federal Rule of
Civil Procedure 54(b).
On November 10, 2016, the District Court dismissed the complaint in Frazier for failure to state a
4
5
6
7

Id.

App. 12.

Id.

App. 102.

5
claim for which relief could be granted after noting,
among other things, that Mr. Frazier died in the
shower after suffering a heart attack six years after
he last performed for the WWE. 8 The plaintiff in
that case made no effort at that time to appeal, and
he did not ask the District Court for a Rule-54(b)
certification.
On March 27, 2018, this Court decided Hall and
held that, in consolidated cases such as this one, a
final decision in one of the consolidated cases is immediately appealable. See 138 S. Ct. at 1131. That
also, of course, meant that the jurisdictional clock
for filing a notice of appeal would begin to run.
App. 9. In dismissing Frazier, the District Court noted that
Mr. Kyros had filed deceptive pleadings, and it warned him to
adhere to the ethical rules lest he be sanctioned. He did not
heed the warning, and the District Court later sanctioned him
in certain of the other consolidated cases. In that opinion, the
District Court offered some sense of the baselessness of the
plaintiffs’ claims:

8

By Plaintiffs’ own admission, Frazier was a six-footnine-inch, nearly 500-pound man who “suffered from
diabetes, an enlarged heart, and obesity” and suffered
a heart attack in the shower. [FAC ¶ 50, 160]. Even if
the Court assumes for the purposes of this motion that
Plaintiffs’ unprovable allegation that Frazier “had
CTE” were true, the Amended Complaint does not contain a single allegation that heart failure can be a
symptom or consequence attributable to a neurologically degenerative condition like CTE. Thus, counsel’s allegation that Frazier’s “inability to survive the heart
attack” can be “more likely than not attributed” to his
CTE is yet another bald and baseless allegation, unprovable and unsupportable, which the Court deems
unworthy of the barest measure of credibility.

App. 84.

6
Notably, the District Court dismissed one of the
consolidated cases—Singleton v. World Wrestling
Entertainment, Inc.—the day after this Court decided Hall, yet Mr. Kyros did not file a notice of appeal
in accordance with Hall even though the Court’s
announcement of its decision in Hall and the attendant coverage in the legal press would have
alerted counsel to the change in the law.
Although their earlier appeals had been dismissed on the basis of circuit authority Hall overruled, the plaintiffs in Haynes and McCullough
made no request to the Second Circuit for any sort
of relief such as, for example, recalling the mandate
in the September 2016 appeal. Likewise, the plaintiff in Frazier took no immediate steps to address
the change in authority. Instead, all of these plaintiffs sat on their hands.
On September 27, 2018, the District Court resolved the last of the consolidated cases, Laurinaitis, in the WWE’s favor. 9 On October 26, 2018, the
plaintiffs filed notices of appeal in five of the seven
consolidated cases—including the three cases that
App. 19. In its opinion, the District Court sanctioned Petitioners’ counsel after explaining that

9

[t]he Court has been extremely forgiving of Attorney
Kyros’ and his appearing co-counsels’ highly questionable practices throughout this case, in an effort to give
each wrestler a fair hearing. However, despite second,
third, and fourth chances to submit pleadings that
comply with Rules 8, 9, and 11, Attorney Kyros has
persisted in asserting pages and pages of frivolous
claims and allegations for which he lacked any factual
basis.”

App. 61.

7
are the subjects of the petition before this Court,
Haynes, McCullough and Frazier.
The WWE filed motions to dismiss those appeals
because they were untimely. The appellants responded with an incorrect argument that Hall did
not apply to the sort of consolidation that had occurred in their cases or that their untimely appeals
should be permitted because of their lawyer’s “excusable neglect.” They did not raise the issue that is
the basis of their present certiorari petition. 10 The
Second Circuit deferred resolution of those motions
to the merits panel to decide after oral argument.
As the oral argument in the Court of Appeals began, one of the judges foreseeably asked appellants’
counsel about the effect of Hall on the Second Circuit’s jurisdiction:
JUDGE PARK: This is Judge Park. I guess
before getting into the merits, I’d like to ask
you about on the motions to dismiss or I guess
before we even get there, I’d like to ask you
about the impact of the Supreme Court’s holding in Hall and the situation here with the
notices of appeal. It seems to me that the Supreme Court made clear in the Hall decision
that there is a 30-day time limit and that is
what applies to each individual case regardless of whether they’re consolidated but
they’re independent appeals. And, you know,
notwithstanding this Court’s decision earlier
in this case, wouldn’t we have to follow that
decision of the Supreme Court?
10 The motions to dismiss and responses to them are available
through the PACER system.

8
MR. KYROS: Well, I think we addressed that
when WWE filed the motion to dismiss the
appeal for lack of appellate jurisdiction. And I
just found the argument as unresolved. I
don’t have—I wasn’t prepared to speak about
that but essentially the argument there is
that the issue was unresolved. I think we cited to even a K&L Gates article that described
that there were situations like this that—in
both people that had filed appeals, filed appeals and then had not, you know, availed
themselves, hadn’t yet been given the right to
their appeal. So...
JUDGE NARDINI: I’m sorry, Mr. Kyros. This
is Judge Nardini. You’re aware that the motion to dismiss was referred to this panel for
consideration, correct?
MR. KYROS: Yes.
JUDGE NARDINI: That motion was not denied. You understand that, right?
MR. KYROS: Yes, Your Honor.
JUDGE NARDINI: And this goes to the jurisdiction of this Court to decide, right?
MR. KYROS: Yes, it does, Your Honor.
JUDGE NARDINI: And you were not prepared to discuss this issue?
MR. KYROS: I apologize, I misspoke. I was—I
had my prepared comments but I looked at
the argument and I really rest on what we
said. I’m not sure…

9
JUDGE NARDINI: Well, actually instead of
resting on your papers and telling us that it’s
an unresolved issue, because I think the question before the Court is whether we need to
resolve it, right? So it’s not helpful to say nobody’s resolved it, right? Because here we are
today, right? I mean we may have to rule on
this, right? So why should we rule in your favor and not dismiss any number of your clients’ claims for lack of jurisdiction? Could you
explain to us why?
MR. KYROS: Well, Your Honor, I think that
the issue in the Hall decision was it gave the
wrestler, excuse me, gave the plaintiffs in
that case the right to appeal. So these cases
get consolidated for all purposes and in our
case this Court decided that we would have to
wait until the final order came down before
we took our appeal. So I felt that the, the argument was sort of a difficult one for looking
at the rights of these plaintiffs because if they
had not, you know, if they had, there was no
way for them to follow that. We took the right
of appeal with the Haynes and McCullough
cases. So I mean I think that we—once the
judge issued the final decision in this case we
took a timely appeal. 11
The argument then turned to a discussion of the
sanctions orders the District Court had entered
against Mr. Kyros.
11 The recording of the oral argument is available on the Second Circuit’s website. The WWE’s counsel prepared the transcript of the oral-argument colloquy from that recording.

10
On September 9, 2020, the Second Circuit resolved the appeals in a summary order. 12 With respect to Haynes, McCullough and Frazier, the Court
of Appeals recited the procedural history and noted
the plaintiffs’ inaction after this Court decided Hall:
This inaction was fatal. Arguments as to
Hall’s applicability or as to any “workarounds” have been waived. Hall controls
and renders the notices of appeal in
Haynes,
Singleton,
Frazier,
and
McCullough untimely. Untimely notices of
appeal are jurisdictional bars to this
Court’s review. See Bowles v. Russell, 551
U.S. 205, 209 (2007) ... Accordingly, we
lack appellate jurisdiction over the appeals
in Haynes, McCullough, Frazier, and Singleton and, for that reason, those appeals
are dismissed.
Haynes, et al. v. World Wrestling Entertainment,
Inc., et al., Nos. 18-3322-cv, at Typeset 8 (2d Cir.
Sept. 9, 2020). 13
The Court of Appeals did reach the merits in one
of the CTE cases, Laurinaitis, which was the last of
the consolidated cases the District Court dismissed
such that the notice of appeal was timely. In Laurinaitis, the Second Circuit determined that the District Court correctly held that the claims were all
time barred or frivolous. 14

12
13
14

App. 1.

App. 11.
App. 12.

11
The Court of Appeals also held that it lacked appellate jurisdiction over sanctions orders against
Mr. Kyros because the District Court had not yet
quantified the sanctions. 15
On October 15, 2020, the Second Circuit denied
Petitioners’ rehearing petition.
REASONS FOR DENYING THE WRIT
I.

There is no split of authority, and the issue presented is not of sufficient importance to warrant this Court’s review.

The petition meets none of the Court’s usual criteria for granting certiorari. See Supreme Ct. R. 10.
Petitioners’ characterization of the question presented in their petition makes clear that their goal
is error correction. They ask the Court to decide—
Did the Second Circuit err in ruling that it
lacked jurisdiction to hear the Petitioners’
appeals in three of seven consolidated cases, which were filed within 30 days after
final judgment in the last of those cases,
on the ground that the appeals were untimely under Hall, even though, more than
a year before Hall, the Second Circuit had
dismissed Petitioners’ otherwise timely
first attempted appeals because final
judgment had not yet been entered in all
of the consolidated cases? 16

15
16

App. 17.

Petition at i.

12
But this Court does not sit to correct errors. See
Supreme Ct. R. 10 (“A petition for a writ or certiorari is rarely granted when the asserted error consists
of erroneous factual findings or the misapplication
of a properly stated rule of law.”).
Petitioners do not and cannot suggest that there
is any division among the courts of appeals on that
question. The WWE has been unable to find any
case other than this one in which a party has raised
it. Indeed, that question is not even presented in
Frazier since, as noted above, there was no interlocutory appeal in that case.
The uniqueness of this case likewise undercuts
Petitioners’ contention that the issue is of broad
public importance. The Court decided Hall three
years ago, and Petitioners have not identified even
one other case that presents their issue. That is unsurprising since the particular facts of these cases
and the issue Petitioners draw from those facts are
so idiosyncratic. They have not appeared elsewhere
and, given that history and given that Hall has now
settled the timing issue, those facts are entirely unlikely to occur again.
II.

The Second Circuit did not err.

In framing their question for review, Petitioners
ask if the Second Circuit erred in holding that it did
not have jurisdiction over the appeals in Haynes,
McCullough and Frazier. The answer is that the
Court of Appeals made no mistake.
At the time the Court of Appeals decided the appeals at issue here, this Court had decided in Hall
that, as each case in a consolidated group is resolved, the dismissal is immediately appealable.

13
That necessarily means that the time to take an appeal begins to run for each individual case when
that case is dismissed. Section 2107(a) of the Judicial Code requires a party to file a notice of appeal
within 30 days of the order or judgment to be challenged. It is undisputed that the October 26, 2018,
notices that gave rise to the appeal at issue here
were not filed within 30 days of the dismissals of the
Haynes, McCullough and Frazier cases. Thus, the
Second Circuit properly held that the appeals were
untimely under controlling law.
Petitioners obliquely suggest that the Second
Circuit should have made an equitable exception in
their cases because of that court’s earlier dismissals
in accordance with its then-controlling authority.
They are wrong.
First, although not mentioning it directly, Petitioners seem to invoke the “unique circumstances”
doctrine of Harris Truck Lines, Inc. v. Cherry Meat
Packers, Inc., 371 U.S. 215 (1962) (per curiam), to
seek an equitable exception to the appeal deadline.
But Bowles expressly overruled Harris Truck Lines
and definitively held that courts have no authority
to make equitable exceptions to jurisdictional deadlines. See 551 U.S. at 214.
Second, as demonstrated below, even if Bowles
did not preclude equitable exceptions, Petitioners
make a particularly weak claim for equity since they
had means to preserve their appellate avenues that
they simply did not pursue.
The Second Circuit made no error.

III.

14
Petitioners had means to pursue their
appeals.

Petitioners tell the Court repeatedly that they
had no “workarounds” to avoid losing the opportunity to appeal. That is not so.
First, if the plaintiffs in Haynes and McCullough
believed the Second Circuit incorrectly dismissed
their 2016 appeals as premature, they could have
sought en banc rehearing or filed a petition for a
writ of certiorari with this Court. They did neither.
Second, even before Hall, those plaintiffs could
have sought immediate review prior to a final resolution of all of the consolidated cases by requesting
from the District Court certification under Federal
Rule of Civil Procedure 54(b). Indeed, the Second
Circuit’s 2016 decision in McCullough expressly
noted that avenue. See 838 F.3d at 212. 17 The plaintiffs made no effort to employ Rule 54(b).
After the Court decided Hall, the plaintiffs in
Haynes and McCullough could have asked the Second Circuit to recall its mandate from the 2016 appeal. See Sargent v. Columbia Forest Prods., Inc., 75
F.3d 86, 90 (CA2 1996) (“One circumstance that may
justify recall of a mandate is a supervening change
in governing law that calls into serious question the
correctness of the court’s judgment.”) (quotation
omitted). 18
17

App. 99.

18 Had Petitioners sought a recall of the mandate in the weeks
after the Court issued its Hall decision, the Second Circuit
would have considered whether “whether there was a substantial lapse in time between the issuing of the mandate and the
motion to recall the mandate ...” Stevens v. Miller, 676 F.3d 62,

15
Simply stated, Petitioners created their own dilemma by their inactivity. They seek now to blame
the Second Circuit for their circumstance and to
have this Court accept for review a case that meets
none of the Court’s guidelines for certiorari.
IV.

This case would in any event be a poor
vehicle for the Court’s consideration because Petitioners did not raise the issue
below.

To the extent Petitioners seek review to ask for
an equitable exception to Hall, they have waived
that argument because they did not assert it in the
Court of Appeals. See United States v. United Foods,
Inc., 533 U.S. 405, 417 (2001) (Court will not consider arguments not pressed below). Petitioners argued
instead that Hall did not apply or that the court
should excuse their lawyer’s “excusable neglect.” 19
69 (CA2 2012). In considering that timing issue, the Second
Circuit considers both the time between the mandate and the
motion to recall the mandate and the time between the change
in authorities and the motion to recall the mandate. See, e.g.,
United States v. Tapia, 816 Fed.Appx. 619 (CA2 2020). Here,
this Court decided Hall less than a year and a half after the
Second Circuit dismissed the appeals in Haynes and
McCullough. Had Petitioners reacted with a prompt motion to
recall the mandate, they would have at least demonstrated
diligence. Instead, Petitioners did absolutely nothing. Indeed,
Mr. Kyros did not lodge any appeal from the dismissal of the
Singleton case even though it was dismissed essentially at the
same time this Court decided Hall. (Notably, perhaps so as not
to highlight that lack of diligence, Petitioners present no argument to this Court regarding the Second Circuit’s dismissal
of the Singleton appeal on jurisdictional grounds.)
See Opposition to Motion to Dismiss in McCullough v.
World Wrestling Entertainment, Inc., No. 18-3278 (2d Cir.)
(CM/ECF Doc. 71).

19

16
They have abandoned those arguments in their petition to this Court.
Thus, even if the issue were of sufficient importance to merit this Court’s review, this case
would be a poor vehicle for the Court’s consideration.
CONCLUSION
There is no circuit split. The issue Petitioners
present is important only to them since there are no
other cases that present the issue—and there is no
reason to believe any such cases will arise in the future. And, in any event, the Second Circuit reached
the right decision and there is no basis either legally
or factually for an equitable exception to Hall.
The Court should deny the petition for a writ of
certiorari.
David R. Fine
K&L GATES LLP
17 North Second St.,
18th Fl.
Harrisburg, PA 17101
(717) 231-4500

March 18, 2021

Jerry S. McDevitt
(counsel of record)
Curtis B. Krasik
K&L GATES LLP
K&L Gates Center
210 Sixth Avenue
Pittsburgh, PA 15222
(412) 355-6500
jerry.mcdevitt@klgates.com

